                                     SOCIAL SECURITY
MEMORANDUM

Date:   May 26, 2009                                                                  Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Quick Response Evaluation: Florida’s Title IV-E Waiver May Impact Supplemental
        Security Income Benefits (A-04-09-19091)


        The attached final report presents the results of our review. Our objective was to
        determine whether a Title IV-E waiver granted to the State of Florida by the U.S.
        Department of Health and Human Services hindered the Social Security
        Administration’s ability to accurately determine the amount of Supplemental Security
        Income payments due children in Florida’s foster care program.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.



                                                         S
                                                         Patrick P. O’Carroll, Jr.

        Attachment
    QUICK RESPONSE
     EVALUATION
      Florida’s Title IV-E Waiver
May Impact Supplemental Security Income
                Benefits

             A-04-09-19091




               May 2009
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                                Background
OBJECTIVE
Our objective was to determine whether a Title IV-E waiver granted to the State of
Florida by the U.S. Department of Health and Human Services (HHS) hindered the
Social Security Administration’s (SSA) ability to accurately determine the amount of
Supplemental Security Income (SSI) payments due children in Florida’s foster care
program.

BACKGROUND
Supplemental Security Income and Foster Care Payments

Title XVI of the Social Security Act provides for SSI payments to aged, blind, or disabled
individuals who meet certain requirements and do not have income or resources that
exceed Federal limits. The purpose of SSI is to provide a minimum level of income to
qualified individuals. Children, as well as adults, may be eligible for SSI payments.

On occasion, children receiving SSI payments are placed in a State’s foster care
program. Florida’s foster care settings include licensed foster homes, residential
facilities, and homes of relatives or other approved individuals. Florida’s Department of
Children and Families (DCF) reimburses foster care providers, on a monthly basis, for
certain expenses incurred to care for a child. These monthly “maintenance payments”
assist with the cost of providing food, clothing, shelter, daily supervision, school
supplies, and other care-related expenses.

Title IV-E of the Social Security Act 1 authorizes the foster care program and provides
foster care funding for eligible children. 2 When a child is “Title IV-E eligible,” 3 the State
may be entitled to receive Federal funds that help offset a portion of the child’s foster
care maintenance payments.




1
    The Social Security Act § 470 et seq., 42 United States Code (U.S.C.) § 670 et seq.
2
    The Foster Care Program is administered by the HHS, Administration for Children and Families.
3
 To be Title IV-E eligible, a child must meet the following criteria: (1) was removed from their home and
placed in an approved foster care setting; (2) is in a family that receives, or is eligible to receive, financial
assistance from Aid to Families with Dependent Children; (3) lived with a parent or relative 6 months
before removal from their home; (4) has family or self-income below federally established poverty levels;
and (5) was deprived of one parent either because of death, separation, abandonment, incapacity or
disability, unemployment, or under-employment. The Social Security Act § 472; 42 U.S.C. § 672;
Title 45 Code of Federal Regulations (C.F.R.) § 1356.21.


Florida’s Title IV-E Waiver May Impact SSI Benefits (A-04-09-19091)                                                 1
Title IV-E Waiver

Effective October 2006, HHS, Administration for Children and Families, granted Florida
a 5-year waiver that allowed flexibility in using Title IV-E Federal funds. The waiver,
categorized as a “Flexible Funding/Capped IV-E Allocations Demonstration Project,” 4
allows Title IV-E funds to be used for any child welfare purpose, instead of being
restricted to out-of-home care, as generally required under Federal law. 5 Under the
waiver, Florida may spend Title IV-E funds to establish or expand services that protect
children from abuse and neglect, preserve families, and promote permanent family
environments. Flexible use of Title IV-E funds is expected to improve family services,
thereby reducing or preventing foster care placements. From October 2007 through
September 2008, Florida DCF averaged about 24,000 children a month in some type of
foster care setting.

The waiver also exempts Florida from reporting expenditures in detail, which was
previously required for Title IV-E reimbursement. Rather, under the waiver, funding is
calculated on a base-year amount with annual increases. 6 The waiver allows States to
receive Title IV-E funding up-front rather than as reimbursement for expenses.
However, the waiver agreement requires cost-neutrality to the Government, meaning
States cannot receive more in Title IV-E reimbursement than they would have received
in the absence of the waiver. 7 Table 1 details Florida’s Title IV-E funding during the
waiver period.

                    Table 1: HHS Funding for Florida’s IV-E Waiver Project
                                  Fiscal Year           Title IV-E Funding
                                     2007                     $144,936,222
                                     2008                      149,284,309 8
                                     2009                      153,762,838
                                     2010                      158,375,723
                                     2011                      163,126,995
                                           Total              $769,486,086

4
 Florida is among five States participating in the Flexible Funding/Capped IV-E Allocations
Demonstration Project. Indiana, Ohio, and Oregon are operating under a 5-year extension of the
Title IV-E waiver, while California and Florida are operating under their original waiver agreement.
North Carolina terminated its waiver extension in February 2008 because of difficulties in maintaining cost
neutrality.
5
    The Social Security Act § 472(a)(1), 42 U.S.C. § 672(a)(1); Title 45 C.F.R § 1356.21(k).
6
  During the 5-year waiver period, Florida will receive Federal funding based on what it would have
received under the Title IV-E rules for the Fiscal Year ended September 30, 2005—with 3 percent annual
increases. The amounts were based on funding for foster care maintenance and administrative costs.
7
    The Social Security Act § 1130(g), 42 U.S.C. § 1320a-9(g).
8
  According to HHS data, for Fiscal Year 2008, DCF expended about $68.3 million in Title IV-E waiver
funds for foster care maintenance payments (room and board), prevention, and other in-home services.


Florida’s Title IV-E Waiver May Impact SSI Benefits (A-04-09-19091)                                      2
Effect of Foster Care Payments on Supplemental Security Income Payments

SSI is a needs-based program in which eligibility for payments is based partly on the
amount of income and resources available to the claimant. As such, SSA must
consider all resources when determining a claimant’s eligibility and the amount of SSI
payments. 9 With foster care payments, the source of the payment is also a factor in
determining its effect on SSI payments. In States without waivers, SSA deems
Title IV-E benefits as income. Therefore, a foster care child receiving both SSI and
Title IV-E payments would have their SSI payment reduced dollar-for-dollar by the
amount of Title IV-E funds.

If an individual is eligible for both payments, States are not required to apply for SSI and
Title IV-E funds. Rather, States may elect to use their own funds and not request
Title IV-E reimbursement of foster care maintenance payments. In this situation, SSA
treats State-funded benefits as “assistance,” not “income” to the SSI recipient.
Accordingly, no offset occurs, and the foster care child receives full SSI payments
(assuming no other reductions or offsets apply). 10 A Florida DCF official estimated that
DCF receives about $10 million annually from SSI payments. The following flowchart
illustrates SSI, State, Federal, and Title IV-E payments to Florida’s foster care program.




9
 Substantial income or resources may result in the reduction of SSI payments or even negate eligibility.
The maximum monthly SSI payment for 2008 was $637 for an individual and $956 for a couple.
10
  Although SSA may remit full SSI payments, ultimately, the child may not receive the entire amount.
States are permitted to use SSI payments to offset their foster care maintenance costs. Accordingly, the
child would only receive SSI payments that exceed the State-funded foster care maintenance payments.


Florida’s Title IV-E Waiver May Impact SSI Benefits (A-04-09-19091)                                        3
   Flowchart 1: SSI, State, and Federal Funds to Florida’s Foster Care Program




Florida’s Title IV-E Waiver May Impact SSI Benefits (A-04-09-19091)              4
                                                      Results of Review
SSA’s ability to determine the amount of payments due certain SSI recipients was
complicated by Florida’s Title IV-E waiver. Additionally, changes in Florida’s accounting
methods, which it made as a result of the waiver, provide less detailed information
regarding the source of funds used to pay SSI recipients’ foster care maintenance
costs. This information is critical for SSA to determine SSI eligibility and to pay correct
benefits. SSA’s Atlanta Regional Office (ARO) and the Office of Income Security
Programs (OISP), in the Office of the Deputy Commissioner for Retirement and
Disability Policy, researched the issue. Ultimately, the ARO issued guidance to its field
offices instructing them, in each case, to verify the foster care funding source with
Florida DCF. If Florida DCF asserted that State funds reimbursed the child’s foster care
maintenance costs, rather than Title IV-E funds, SSA would not consider the benefits as
income. Accordingly, the foster child’s SSI benefits would not be subject to offset.

We believe Florida’s accounting system does not provide enough detail to confirm State
funds, rather than Title IV-E funds, are being used for foster care maintenance
payments for those children also receiving SSI payments. As such, the State could be
receiving Federal funds from two sources for the same purpose.

We acknowledge SSA took, what it considers, appropriate actions to ensure children
receiving SSI benefits and who are in Florida’s foster care program are paid correctly.
Specifically, SSA was satisfied with information it obtained from the State of Florida that
attested to the fact that Florida DCF pays foster care maintenance costs with State
funds. Accordingly, in March 2008, the ARO instructed all Florida SSA field offices to
verify the source of each child’s foster care benefits. In compliance with this instruction,
we believe SSA should ensure that field offices verify the source of funds, in each case,
with DCF staff.

Additionally, given that Indiana, Ohio, Oregon, and California are also participating in a
Flexible Funding/Capped IV-E Allocation Demonstration Project, we believe SSA should
ensure that these five states, when applicable, provide sufficient information that would
enable field office staff to determine whether a child’s foster care benefits impact their
SSI eligibility or amount of benefits.

FOSTER CARE FUND SOURCES ARE LESS IDENTIFIABLE UNDER THE WAIVER

After HHS granted Florida the Title IV-E waiver, the State changed its accounting
practices, making the determination regarding the source of foster care maintenance
payments for SSI recipients extremely difficult. As shown in Flowchart 1, Florida DCF
combines SSA, State foster care maintenance payments, and Title IV-E funds.
Accordingly, the State cannot definitively determine the source of funds used for foster
care maintenance payments.




Florida’s Title IV-E Waiver May Impact SSI Benefits (A-04-09-19091)                        5
Under the waiver, Florida’s DCF classifies foster care children receiving SSI as
IV-E eligible but non-reimbursable. By making this determination, DCF asserts that
State funds, not Title IV-E funds, are used to reimburse foster care maintenance
payments. SSA considers the State funds to be financial “assistance,” not income, in
determining SSI eligibility and payments. Therefore, SSA would pay full SSI payments
to the foster care child (or the appropriate representative payee).

Because Florida DCF is operating under the waiver, it is not required to make claims to
HHS for Title IV-E reimbursement of foster care maintenance payments. As a result,
DCF modified its accounting system and no longer has an accounting expenditure code
for every fund source and foster care placement type. Although DCF can identify the
cost of care for each child, it no longer shows the cost was charged to a specific State
fund.

DCF relies on other, broader, information to conclude that State funds are used to pay
maintenance costs for children receiving SSI who are deemed Title IV-E eligible but
non-reimbursable. For example, DCF emphasized the State continues to fund child
welfare through a combination of State general revenues and other Federal funds at
levels that, at a minimum, matched the funding before the waiver. DCF asserts,
because State funding has at least remained the same under the waiver, it is unlikely
that Federal Title IV-E funds are being used to reimburse foster care maintenance costs
for children receiving SSI. DCF is confident its broad analysis supports its assertion
that Title IV-E funds are not used to reimburse foster care maintenance costs for SSI
recipients.

However, given Florida DCF’s revised accounting practices limit its ability to determine
whether State funds were used to make foster care maintenance payments, we are
concerned that SSA was not provided sufficient information to determine whether an
SSI offset is applicable.

SSA’s GUIDANCE ON TREATING TITLE IV-E WAIVER BENEFITS

After DCF implemented the Title IV-E waiver, SSA’s field offices performed routine
eligibility verifications for SSI recipients. 11 During this process, at least one of Florida’s
Community Based Care lead agencies reported to SSA that foster care children were
receiving Title IV-E waiver benefits as monthly maintenance payments. In
redetermining the childrens’ eligibility, SSA’s field office deemed the Title IV-E funds as
income, which initiated the offset of SSI payments. The Community Based Care
agency subsequently raised concerns to the field office as to whether the offsets were
correct. Field office staff involved in the eligibility verifications contacted SSA’s ARO for
guidance on the proper treatment of the Title IV-E waiver benefits. Ultimately, the issue
was elevated to SSA’s OISP, which researched the matter.



11
  SSA periodically performs reviews (redeterminations) of SSI recipients to ensure eligibility and that any
benefits due the recipient are paid accurately.


Florida’s Title IV-E Waiver May Impact SSI Benefits (A-04-09-19091)                                       6
Detailed questions were presented to both DCF and HHS. Based on the responses, the
ARO (with OISP’s concurrence) issued a memorandum in March 2008 to all Florida field
offices and area directors that provided guidance on the treatment of Title IV-E waiver
benefits. The memorandum concluded that DCF’s intent, before and under the waiver,
was to maintain foster childrens’ SSI eligibility by paying foster care maintenance costs
with State funds. The ARO instructed the field offices to verify the foster care funding
source for each case, and to accept the State’s assertion that foster care maintenance
payments for SSI recipients are paid with State funds.




Florida’s Title IV-E Waiver May Impact SSI Benefits (A-04-09-19091)                     7
                                     Matters for Consideration
We acknowledge Florida DCF’s intent is to reimburse foster care maintenance
payments to those children who receive SSI payments with State funds. This practice
would preserve the child’s SSI eligibility and monthly payments. However, after the
Title IV-E waiver, DCF changed its accounting practices and no longer associates
monthly foster care maintenance payments with a specific State fund (source). As
such, the State could be receiving Federal funds from two sources for the same
purpose. Also, without such data, SSA cannot be assured that State funds are used to
reimburse these costs when SSI is involved. This situation complicates SSA’s decision
on whether Title IV-E funds should be considered income and an SSI offset is required.

We acknowledge SSA took, what it considers, appropriate actions to ensure children
receiving SSI benefits and who are in Florida’s foster care program are paid correctly.
Specifically, SSA was satisfied with information it obtained from the State of Florida that
attested to the fact that Florida DCF pays foster care maintenance costs with State
funds. As such, the children’s SSI benefits are not subject to a Title IV-E offset. In
March 2008, the ARO instructed all Florida field offices to verify, in each case, the
source of the child’s foster care benefits. In compliance with this instruction, we believe
SSA should ensure that field offices verify the source of funds, in each case, with DCF
staff.

Additionally, Indiana, Ohio, Oregon, and California are also participating in a Flexible
Funding/Capped IV-E Allocation Demonstration Project. We believe SSA should
determine whether these States have source of funding information that SSA field office
staff may use to determine whether foster care benefits impact the child’s SSI benefits.
Further, if necessary, SSA should consider issuing guidance to field offices in these
States on how to handle SSI claims involving foster care children and Title IV-E waiver
funds. Finally, in the event other States are granted Title IV-E waivers, SSA should take
similar action.




Florida’s Title IV-E Waiver May Impact SSI Benefits (A-04-09-19091)                       8
                                             Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – OIG Contacts and Staff Acknowledgments




Florida’s Title IV-E Waiver May Impact SSI Benefits (A-04-09-19091)
                                                                      Appendix A

Acronyms
    ARO                 Atlanta Regional Office

    C.F.R.              Code of Federal Regulations

    DCF                 Florida Department of Children and Families

    HHS                 U.S. Department of Health and Human Services

    OISP                Office of Income Security Programs

    OIG                 Office of the Inspector General

    SSA                 Social Security Administration

    SSI                 Supplemental Security Income

    U.S.C.              United States Code




Florida’s Title IV-E Waiver May Impact SSI Benefits (A-04-09-19091)
                                                                              Appendix B

Scope and Methodology
Our objective was to review whether Florida’s Title IV-E Waiver hindered the Social
Security Administration’s (SSA) ability to accurately determine the amount of
Supplemental Security Income (SSI) payments due children in Florida’s foster care
program. The waiver, effective October 2006, was granted by the U.S. Department of
Health and Human Services (HHS), Administration for Children and Families. We
became aware of the Florida IV-E waiver during a prior review of a Florida foster care
organization. 1 However, because additional work was needed to determine how the
waiver impacted SSA’s requirement to offset SSI payments against Title IV-E payments,
we introduced the subject in the Other Matter section of the report. As such, we
initiated this review to further assess the matter.

To accomplish our objective, we:

   Reviewed the terms and conditions of Florida’s Title IV-E waiver, which is part of
    HHS’ Flexible Funding/Capped IV-E Allocation Demonstration Project.

   Reviewed relevant Federal and State laws and regulations, as well as SSA’s policies
    and procedures.

   Interviewed SSA personnel regarding Florida’s Title IV-E waiver.

   Interviewed HHS and Florida’s Department of Children and Families (DCF) staff.

   Reviewed HHS websites for background information and prior reports pertaining to
    foster care, Title IV-E funds, and Title IV-E waivers.

   Reviewed DCF websites for information on the Title IV-E waiver and the foster care
    program.

We did not perform tests of DCF’s accounting records or its Community Based Care
lead agency’s accounting records.




1
 Partnership for Strong Families, an Organizational Representative Payee for the Social Security
Administration (A-04-07-17084), March 2008. http://www.ssa.gov/oig/ADOBEPDF/A-04-07-17084.pdf


Florida’s Title IV-E Waiver May Impact SSI Benefits (A-04-09-19091)                                B-1
We performed our review from September 2008 through April 2009 in Atlanta, Georgia.
The entity reviewed was the Atlanta Regional Office and the Office of the Deputy
Commissioner for Retirement and Disability Policy, Office of Income Security Programs.
We conducted our review in accordance with the President’s Council on Integrity and
Efficiency’s 2 Quality Standards for Inspections.




2
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11.




Florida’s Title IV-E Waiver May Impact SSI Benefits (A-04-09-19091)                                  B-2
                                                                      Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Kimberly Byrd, Director, Atlanta Audit Division

   Frank Nagy, Audit Manager, Atlanta Office of Audit

Acknowledgments
In addition to those named above:

   Teaketa Turner, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-04-09-19091.




Florida’s Title IV-E Waiver May Impact SSI Benefits (A-04-09-19091)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
